No. 19-959

 

IN THE

Supreme Court of the United States

TAMKO BUILDING PRODUCTS, INC.,

Petitioner,
¥.
DANIEL WILLIAMS and BARBARA WILLIAMS,
Respondents.

On Petition for Writ of Certiorari to the
Supreme Court of Oklahoma

REPLY BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,940 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 14, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
